The United States Department of Justice decision to
"backhand" issues did not "backfire," because Judge
Jackson broke precedence to make new arguments not
made by the United States Department of Justice and the
DC Circuit panel allowed even more new arguments in
the contested motion for summary affirmance.
WestNET should have been stopped from using
awful public policy to use federal tax dollars to loot
citizens who try and grow medical marijuana. The policy
should have been halted in 2020.WestNET should have
been stopped from being used as a legal entity to collect
revenue as Rico Act organization.
A true "level playing field" might have stopped
violations of law and constitutional rights, but the "level
playing field" in Worthington v. ONDCP et al, tilted too
far towards the United States Department of Justice.
The State of Washington and the U.S. Department of .
Treasury are running illegal revenue collecting
mechanisms through entities which were never meant to
function as a legal entity. They have done so knowingly
so they could pay for employees and other task force
expenditures. They never came close to the "level
playing field" and escaped accountability with a huge
assist from the DC Circuit.
On more than one level, the federal government had
checks and balances to stop WestNET from being used as
a legal entity, but the WestNET executive board,
comprised of federal, state and local members, failed at
every level on purpose, so they did not have to go back to
component members to get task force funding.
Worthington tried to stop this illegal behavior and bad
public policy but the D.C. Circuit buried it.
The "decades old" circuit "docket management
tool" was not applied in Worthington v. ONDCP et al
and this case was not conducted on a "level playing

7

